           Office of Inspector General




March 31, 2005

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Mail Transport Equipment Service Center Network –
         Equipment Processing (Report Number NL-AR-05-006)

This report presents results from our self-initiated nationwide audit of the mail transport
equipment service center (MTESC) network (Project Number 04YG003NL000). The
objective of our audit was to follow up on previous audit recommendations to determine
if they were implemented and effective.

On June 30, 1997, the Board of Governors approved a Decision Analysis Report (DAR)
recommending a $1.3 million capital investment to implement a contractor-operated
MTESC network as a replacement for the Postal Service-operated system.
Implementation of the network was scheduled to begin in November 1997, be phased in
over 17 months, and be completed by April 1999. However, the network did not
become fully operational until January 2000.

Our report, Mail Transport Equipment Service Center Decision Analysis Report,
Performance and Financial Benefit (Report Number TR-AR-01-003, dated
May 4, 2001), initiated in response to a Board of Governors request, concluded the
network would not achieve the financial benefits anticipated by the 1997 DAR. We
recommended, in part, that management reduce cost by requiring facilities to reuse
serviceable equipment rather than returning it to service centers for processing.

This report focused on whether the Postal Service saved money by requiring facilities to
reuse serviceable equipment. We concluded that the Postal Service saved more than
$7.2 million in processing costs from March 2002 through September 2004, because
headquarters took aggressive and positive action to implement our recommendation,
particularly with regard to reusing “over-the-road” containers (OTRs).

However, we also concluded the Postal Service may have missed an opportunity to
save an additional $1.4 million because all mail processing facilities did not quickly
comply with headquarters’ implementing instructions. Notwithstanding the potential
missed opportunity, the Postal Service can still save $628,000 over the next two years if
all facilities implement headquarters’ policy.


   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We recommended management reemphasize Postal Service OTR processing policy to
all mail processing facilities. Management agreed with our recommendation. They
stated the Postal Service executive vice president/chief operating officer had already
issued a memorandum to each area vice president reemphasizing the OTR processing
policy; that current OTR policy was to be reissued in an upcoming Postal Bulletin; and
that Network Operations Management would monitor the receipt of OTRs at mail
transport equipment service centers during site reviews. Management’s comments in
their entirety, including a copy of the executive vice president/chief operating officer’s
memorandum to the area vice presidents, are included in Appendix D of this report. We
will report $7,828,000 in funds put to better use and $1.4 million in unrecoverable costs
in our Semiannual Report to Congress.

Management’s comments are responsive to our recommendation. We applaud
management’s rapid reaction to our recommendation and we consider the actions taken
sufficient to address the issues we identified. Management’s comments and our
evaluation of these comments are included in this report.

The Office of Inspector General considers recommendation 1 significant and closed
because management’s timely corrective actions resolved the identified issues.
Consequently, the Postal Service can close the recommendation in their follow-up
tracking system.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Keith Strange
    Anthony M. Pajunas
    Beverly A. Van Soest
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                                   NL-AR-05-006
 Equipment Processing




                                       INTRODUCTION
Background                      The Mail Transport Equipment Service Center (MTESC)
                                network is a centrally managed system of 22 contractor-
                                operated service centers designed to supply Postal Service
                                mail processing facilities–and certain large customers–with
                                mailbags, trays, sleeves, pallets, hampers, carts, and
                                “over-the-road” containers (OTRs). The service centers




“Over-the-Road” containers,
  commonly referred to as
           OTRs,
   are large metal rolling
containers used in trucks to
       transport mail.

     This picture depicts
   serviceable OTRs at the
  Front Royal, Virginia, Mail
Transport Equipment Service
    Center, June 8, 2004.




                                deliver equipment to users with dedicated transportation,
                                recover it when equipment is no longer needed or
                                serviceable, and then process it for inventory or redelivery.
                                Processing involves receiving, sorting, and inspecting
                                equipment for repair or disposal.

                                The network was initiated in 1992 as a pilot program, with a
                                prototype center in Greensboro, North Carolina. In 1997,
                                Postal Service management prepared a Decision Analysis
                                Report (DAR) recommending a $1.3 million capital
                                investment to implement the contractor-operated system as
                                a replacement for the Postal Service-operated system in
                                place at the time.

                                On June 30, 1997, the Board of Governors accepted the
                                recommendation and approved the DAR. Implementation of
                                the network was scheduled to begin in November 1997, be


                                                    1
Mail Transport Equipment Service Center Network –                                NL-AR-05-006
 Equipment Processing




                              phased in over 17 months, and be completed by April 1999.
                              However, the network did not become fully operational until
                              January 2000. From the outset, the new network was
                              troubled by allegations of poor performance and excessive
                              cost. As a result, the Board of Governors asked the Office
                              of Inspector General (OIG) to evaluate the program.

                              Our audit report, Mail Transport Equipment Service Center
                              Decision Analysis Report, Performance and Financial
                              Benefit (Report Number TR-AR-01-003, dated
                              May 4, 2001), concluded the network would not achieve the
                              financial benefits anticipated by the DAR. We
                              recommended, in part, that management reduce cost by
                              requiring facilities to reuse serviceable equipment rather
                              than returning it to service centers for processing.

Objective, Scope, and         This audit is a follow up to our May 4, 2001, report. Our
Methodology                   objective was to determine if the Postal Service
                              implemented our recommendations and whether
                              implementation was effective. This report focuses on
                              whether the Postal Service saved money by requiring
                              facilities to reuse serviceable equipment rather than
                              returning it to service centers.

                              During our work, we interviewed Postal Service
                              Headquarters officials in Network Operations Management
                              and Supply Management, and officials in the Southeast,
                              Southwest, and Pacific Areas. We observed and
                              photographed operations and examined applicable Postal
                              Service policies, procedures, and directives. In addition, we
                              analyzed billing records for mail transport equipment
                              processing at all 22 service centers and examined
                              correspondence and other relevant records. We consulted
                              with statisticians and other subject-matter experts. We also
                              discussed our observations and conclusions with
                              management officials and included their comments where
                              appropriate.




                                                    2
    Mail Transport Equipment Service Center Network –                                               NL-AR-05-006
     Equipment Processing




                                  We conducted this audit from November 2003 through
                                  March 2005,1 in accordance with generally accepted
                                  government auditing standards and included tests of
                                  internal controls considered necessary under the
                                  circumstances.

    Data and Internal             During our audit, we noted several control weaknesses that
    Control Limitation            delayed and constrained our work. For example, automated
                                  billing records were not available and, consequently, we
                                  could not use computer-assisted analysis techniques. In
                                  addition, complete data for the Chicago MTESC was not
                                  available. However, we compensated for data limitations
                                  and internal control weaknesses by applying alternate audit
                                  procedures, including examination of source documents,
                                  observation, and discussions with responsible officials. For
                                  a detailed explanation of our methodology, see Appendix A.




1
 Project completion was delayed to address Postal Service MTESC realignment initiatives and to obtain additional
billing data.



                                                        3
Mail Transport Equipment Service Center Network –                                  NL-AR-05-006
 Equipment Processing




                                      AUDIT RESULTS

Reusing Serviceable             The Postal Service saved more than $7.2 million in
Mail Transport                  processing costs from March 2002 through September 2004
Equipment                       because headquarters officials took aggressive and positive
                                action to implement our recommendation, particularly with
                                regard to reusing OTRs. However, the Postal Service may
                                have missed an opportunity to save an additional
                                $1.4 million because all mail processing facilities did not
                                quickly comply with headquarters’ policy guidance.




 This poster reflects Postal
  Service policy guidance
   issued March 1, 2002.

  Serviceable over the road
containers are to be retained
at bulk mail centers and only
  sent to MTESC when they
        require repair.

By implementing this policy,
 the Postal Service saved
more than $7.2 million from
    March 2002 through
     September 2004.




                                Notwithstanding the potential missed opportunity, the Postal
                                Service can save an additional $628,000 over the next
                                two years if all facilities follow headquarters’ instructions.
                                For a detailed analysis, see Appendix B.



                                                    4
Mail Transport Equipment Service Center Network –                                                                                   NL-AR-05-006
 Equipment Processing




                                                                 Postal Service officials encouraged the reuse of all types of
                                                                 mail transport equipment and on March 1, 2002, the chief
                                                                 operating officer issued a policy letter specifying that OTRs
                                                                 were for the exclusive use of bulk mail centers and
                                                                 prohibiting facilities from shipping serviceable containers to
   Policy letter issued
     March 1, 2002
                                                                 MTESCs. (See Appendix C.) The letter stipulated that only
                                                                 containers requiring repair could be shipped to the service
                                                                 centers.

                                                                                        Chart 1.
       Number of Over the Road Processed




                                                         Methodology Illustration of Over the Road (OTR) Container Processing
                                                                 (For more detailed analysis, see Appendix A and B)
                                           120,000
                                                                             6-month policy
                                                                            implementation
                                           100,000
                                                                                period
                                            80,000

                                            60,000
                                                                                                        $7.2 million in
                                            40,000                                                     achieved savings

                                            20,000
                                                                                                    Missed opportunity for saving $1.4 million
                                                 0

                                                MAR 01     SEP 01       MAR 02           SEP 02   MAR 03          SEP 03           MAR 04        SEP 04

                                            Source: Appendix B            Legend: OTR Processed before Letter Baseline
                                                                                  OTR Processing Baseline Projected
                                                                                  Reduction in OTR Processing
                                                                                  OTR Processing Goal



                                                                 Although Postal Service Headquarters took aggressive and
                                                                 positive action to pursue this savings opportunity, not all
                                                                 mail processing facilities immediately complied with the
                                                                 policy. Our examination of Postal Service records indicated
                                                                 that mail processing facilities serviced by the various
                                                                 MTESCs had varying levels of compliance, ranging from as
                                                                 low as 36 percent for facilities serviced by Memphis, to as
                                                                 high as 100 percent for facilities serviced by Kansas City.
                                                                 The chart on the following page reflects the compliance of
                                                                 facilities serviced by 21 MTESCs. As indicated in the
                                                                 Objective, Scope, and Methodology section of our report,
                                                                 complete data for the Chicago MTESC was not available.
                                                                 Consequently, Chicago was not included in our analysis.

                                                                 Our analysis indicated that mail processing facilities
                                                                 serviced by the St. Louis MTESC very quickly achieved a
                                                                 95 percent policy compliance rate. If all facilities could



                                                                                     5
Mail Transport Equipment Service Center Network –                                                                                                                                                                                                                              NL-AR-05-006
 Equipment Processing




                                                                                                replicate the St. Louis results and achieve 95 percent
                                                                                                compliance, the Postal Service could save more than
                                                                                                $628,000 over the next two years. (See Appendix A.)

                                                                                                    Chart 2.
                                                                        OTR Processing Policy Compliance Analysis as of September 30, 2004
                                 100
Percentage of Volume Reduction




                                 90




                                                                                                                                                                                                                                                                                                                    Complete data not available
                                 80

                                 70

                                 60

                                 50

                                 40

                                 30

                                 20

                                 10

                                  0




                                                                                                                                                                                                                                                                                                                    Chicago
                                                           Greensboro




                                                                                                                                                                                                                                                                  Des Moines

                                                                                                                                                                                                                                                                                Detroit



                                                                                                                                                                                                                                                                                                      Kansas City
                                                                                                                              Washington



                                                                                                                                                           Secaucus, NJ




                                                                                                                                                                                                                                                                                          St. Louis
                                                                                                                                                                                                                                               Denver
                                                                                                                                                                          Cincinnati
                                                                                                               Philadelphia




                                                                                                                                                                                       Springfield
                                                 Atlanta




                                                                                                                                           San Francisco




                                                                                                                                                                                                     Los Angeles




                                                                                                                                                                                                                                                        Seattle
                                                                                                                                                                                                                                  Pittsburgh
                                                                                                 Minneapolis




                                                                                                                                                                                                                   Jacksonville
                                       Memphis




                                                                                       Dallas
                                                                         Long Island




                                           Source: Appendix B, Column “% Reduction in OTR Equipment Processed as of September 30, 2004.”


                                                                                                Postal Service area employees told us that labor issues
                                                                                                were a prohibiting factor to fully implementing the OTR
                                                                                                container processing policy. However, we did not identify
                                                                                                any labor issues or conditions that differentiated locations
                                                                                                with high levels of policy implementation from locations with
                                                                                                low implementation levels. Consequently, we do not
                                                                                                consider labor concerns to be a prohibiting factor.

Recommendation                                                                                  We recommend the vice president, Network Operations
                                                                                                Management:

                                                                                                           1. Reemphasize Postal Service OTR processing policy
                                                                                                              to all mail processing facilities.

Management’s                                                                                    Management agreed with our recommendation. They
Comments                                                                                        stated the Postal Service executive vice president/chief
                                                                                                operating officer had already issued a memorandum



                                                                                                                                                           6
Mail Transport Equipment Service Center Network –                                NL-AR-05-006
 Equipment Processing




                              to each area vice president reemphasizing the OTR
                              processing policy; that current OTR policy was to be
                              reissued in an upcoming Postal Bulletin; and that Network
                              Operations Management would monitor the receipt of OTRs
                              at mail transport equipment service centers during site
                              reviews. Management’s comments in their entirety,
                              including a copy of the executive vice president/chief
                              operating officer’s memorandum to the area vice presidents,
                              are included in Appendix D of this report.

Evaluation of                 Management’s comments are responsive to our
Management’s                  recommendation. We applaud management’s rapid
Comments                      reaction to our recommendation, we consider the actions
                              taken sufficient to address the issues we identified, and we
                              consider our recommendation closed.




                                                    7
 Mail Transport Equipment Service Center Network –                             NL-AR-05-006
  Equipment Processing




                                          APPENDIX A

           METHODOLOGY AND TECHNICAL DOCUMENTATION
             MTESC NETWORK – EQUIPMENT PROCESSING

Purpose
The Postal Service implemented the OIG’s recommendation to stop unnecessary,
routine processing of OTRs containers, issuing a letter to OTR user sites on March 1,
2002. At many MTESCs, the influence of this letter was immediate, with significant
drops in the processing of OTRs. At other MTESCs, less dramatic reductions occurred,
but the number of OTRs processed has generally decreased since the issuance of the
letter. The methodology described here summarizes the monetary impact calculation
accrued over a 30-month period (May 2002 – September 2004) as a result of
implementation of the OIG recommendation.

Baseline
The number of OTRs processed in the year (March 2001 – February 2002) immediately
preceding the letter served as the baseline for OTR processing levels. Data received
prior to March 2001 appeared, for many sites, to be still in a “ramp-up” condition or to be
missing for several accounting periods (APs). For the Chicago MTESC, the prior data
was virtually nonexistent, so Chicago is excluded from the cost avoidance calculations.
[MTESC processing at Chicago should be reviewed separately to see if the facilities
served by the MTESC are adhering to the letter.]

We repeated the prior-year processing levels over the time following the letter. A few
sites actually appeared to have prior processing levels that might have been gradually
trending upward, but we decided we had insufficient basis to continue an increase over
the next few years. We assumed all sites would continue processing OTRs at about the
same levels as the prior year.

The baseline addressed only the number of OTRs processed by MTESC. For the
processing unit cost in the post-letter period we used the rate applicable to each period
and MTESC.

Actual Processing
We compared the processing levels for the post-letter APs to the baseline extension of
the pre-letter APs. The reduction from the baseline is the processing avoided as a
result of the recommendation. For the cost avoidance calculation, we applied the
processing cost per OTR applicable to a given time period. The implicit assumption is
that a corresponding cost would have applied to the number of OTRs processed at the
baseline level.




                                                     8
 Mail Transport Equipment Service Center Network –                                 NL-AR-05-006
  Equipment Processing




We had originally planned to use an AP-by-AP comparison in case there were seasonal
variations in the number of OTRs processed. This became impossible, however, when
fiscal year (FY) 2002 had the original 13 APs (September 8, 2001 – September 6,
2002), FY 2003 had 14 (September 7, 2002 – September 30, 2003), and FY 2004 had
12 (October 1, 2003 – September 30, 2004). We ultimately were forced to use annual
averages. We calculated the average annual processing cost-per-OTR by dividing the
annual total processing cost by the annual total number of OTRs processed.

Processing Target
We noted the facilities using the St. Louis MTESC took immediate action to implement
the policy stated in the letter. The St. Louis MTESC very quickly showed a 95 percent
reduction in the number of OTRs processed. We adopted the 95 percent reduction
level as an achievable target, based on St. Louis’s example. We did not push for a
100 percent reduction because we considered that there might still be some legitimate
need for some OTR processing.

Unnecessary Cost
Some facilities delayed implementation of the OTR processing guidance, thereby
incurring processing expenses they would not have incurred with the guidance. In
calculating the number of OTRs processed in excess, we allowed a nominal six-month
grace period (March 2002 – September 2002). After that grace period, we consider
OTRs processed above the target level to be an unnecessary cost.

Forecast
The cost avoidance forecast is that savings that will accrue in the upcoming two-year
period we assumed in Chart 2 (see page 6). We used the number of pieces actually
processed in the final AP of FY 2004 as the basis for the forecast. We did not attempt
to make tailored forecasts for each site. We noted that some sites were still reflecting
some gradual reductions in OTR processing over the last year, some were actually
creeping back up, and some were going up and down slightly over the last year. The
forecast calculation is a simple flat-line extension–for all sites–of the level for the final
AP of FY 2004 (September 1, 2004 – September 30, 2004).

Monetary Impact Illustration
Processing avoidance over a 30-month period is illustrated in the body of the report; the
number of OTRs are not for any specific site. The baseline for OTR processing levels is
a repetition of the pre-letter year. The number of OTRs processed above the target
level after the six-month grace period allowed for implementing the new guidance is
what is being questioned. The actual number processed in the illustration shows a
moderate initial decline and a gradual leveling off of OTRs processed.




                                                     9
         Mail Transport Equipment Service Center Network –                                          NL-AR-05-006
          Equipment Processing




                                                  APPENDIX B

                                      SAVINGS SUMMARY ANALYSIS

                                                                                      Questioned
                       Achieved                                  Future (2-yr)     Costs: Costs for
                         Savings           % Reduction in      Cost Avoidance      Processing More
                      Cumulative          OTR Equipment             Using          Than Target After
                    March 23, 2002 - Processed as of            September 30,        March 2002 -
                     September 30,         September 30,      2004, Processing      September 2002       Total Monetary
 Facility Site             20042                2004                Cost3           "Grace Period"           Impact
 Atlanta            $     69,749.26             0.44          $ 106,633.29         $     228,899.77    $    405,282.32
 Chicago           insufficient data in base year
 Cincinnati         $ 461,988.99                0.92          $     6,747.78        $      17,495.44   $   486,232.20
 Dallas             $ 114,229.43                0.68          $   23,989.89         $      33,007.26   $   171,226.58
 Denver             $ 422,008.98                0.97          $             -       $         334.06   $   422,343.04
 Des Moines         $ 173,427.37                0.98          $            -        $              -   $   173,427.37
 Detroit            $ 543,894.99                0.99          $             -       $      15,478.24   $   559,373.23
 Greensboro         $ 1,103,376.35              0.66          $   108,566.34        $     115,175.19   $ 1,327,117.88
 Jacksonville       $ 109,839.45                0.96          $             -       $      30,131.82   $   139,971.26
 Kansas City        $ 185,797.48                1.00          $             -       $              -   $   185,797.48
 Long Island        $ 181,616.93                0.67          $   86,074.86         $     133,876.82   $   401,568.61
 Los Angeles        $ 457,391.38                0.94          $            -        $      12,126.65   $   469,518.03
 Memphis            $ 169,410.46                0.36          $   93,866.32         $      56,829.89   $   320,106.67
 Minneapolis        $ 186,496.91                0.77          $    28,477.35        $      57,404.36   $   272,378.62
 Philadelphia       $ 652,192.85                0.79          $    46,352.04        $      99,038.46   $   797,583.34
 Pittsburgh         $ 286,354.08                0.97          $             -       $      23,612.35   $   309,966.43
 San
 Francisco          $    426,260.03           0.83            $   60,083.61         $      65,752.97   $    552,096.60
 Seattle            $    383,976.20           0.98            $            -        $       8,975.55   $    392,951.76
 Secaucus           $    461,633.42           0.87            $   18,992.61         $     121,459.12   $    602,085.15
 Springfield        $    211,496.87           0.93            $    5,066.51         $      23,884.29   $    240,447.67
 St. Louis          $    503,750.27           0.99            $            -        $              -   $    503,750.27
 Washington         $    112,221.46           0.80            $   43,079.66         $     325,050.30   $    480,351.42
 TOTAL              $ 7,217,113.15            0.71            $ 627,930.26          $ 1,368,532.53     $ 9,213,575.94

Source: Analysis of Postal Service MTESC billing invoices from March 2001 through September 2004.




     2
         Funds Put to Better Use.
     3
         Funds Put to Better Use.




                                                             10
Mail Transport Equipment Service Centers Network –    NL-AR-05-006
 Equipment Processing



                                        APPENDIX C

POLICY LETTER FOR OVER–THE-ROAD CONTAINER PROCESSING




                                                 11
Mail Transport Equipment Service Centers Network –    NL-AR-05-006
 Equipment Processing



                 APPENDIX D. MANAGEMENT’S COMMENTS




                                                 12
Mail Transport Equipment Service Centers Network –    NL-AR-05-006
 Equipment Processing




                                                 13
Mail Transport Equipment Service Centers Network –    NL-AR-05-006
 Equipment Processing




                                                 14
Mail Transport Equipment Service Centers Network –    NL-AR-05-006
 Equipment Processing




                                                 15
